                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

11   Case Number: 10402000'7                                                        11           Page 1 of 1



                  We received the following allegations involving two subjects1who served as high-level
          administrators2 at a grantee instit~tion:~  (1) false statements; (2) over-billing of salary;
          (3) duplication of effort; (4) conflict of interests; and (5) corporate shells/fraud. The allegations
          related to two NSF awardsY4for which one subject was the PI on both awardsY5          and the other
          subject was a co-PI on one of the award^.^ In addition, we received a separate but related
          allegation regarding a company7with a tenuous relationship to one subject.

                  Upon investigation, we determined and the awardee institution conceded that one subject
          had over-billed his salary as PI for one NSF award during an eight-month span of time that he
          was overextended in his responsibilities. The institution agreed to and did reimburse NSF for
          that over-billed amount of salary, plus associated indirect costs. In addition, we recommended
          that the awardee institution revise its COI policies to allow all employees an independent means
          by which to report conflicts. Finally, we determined that none of the other allegations could be
          substantiated.
